           Office of Inspector General




August 3, 2005

GEORGE LOPEZ
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT:         Audit Report – Surface Transportation – Bulk Mail Center Highway
                 Transportation Routes – Southwest Area
                 (Report Number NL-AR-05-008)

This report presents results from our Bulk Mail Center Highway Transportation Routes
audit (Project Number 04YG013NL005). Our objectives were to evaluate the
effectiveness of bulk mail center routes and identify opportunities for cost savings. This
report responds to a request from the vice president, Network Operations Management,
and focuses on routes controlled by the Southwest Area.

The Postal Service could save about $7.2 million over the term of existing Southwest
Area bulk mail highway contracts by canceling, not renewing, or modifying 79 trips. The
savings represent potential funds that could be put to better use and will be reported as
such in our Semiannual Report to Congress. The Postal Service could eliminate or
modify the trips without negatively affecting service because trip volume was low and
mail could be consolidated on other trips. We recommended the vice president,
Southwest Area Operations, (1) verify the actual cancellation, modification, or
substitution of the three trips identified by Postal Service managers during our audit;
and (2) verify the actual cancellation, modification, or substitution of the 76 trips with
which Postal Service officials agreed.

Management agreed with our findings and recommendations. Management stated they
would implement the recommendations not later than August 30, 2005. Management’s
comments and our evaluation of their comments are included in this report.

The Office of Inspector General (OIG) considers recommendations 1 and 2 significant,
and therefore requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.




   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during our audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Paul E. Vogel
    Anthony M. Pajunas
    Steven R. Phelps
Surface Transportation – Bulk Mail Center Highway                          NL-AR-05-008
 Transportation Routes – Southwest Area


                                        INTRODUCTION
 Background                     Bulk mail includes magazines, advertising, and
                                merchandise shipped by major mailers like publishers,
                                catalog companies, or online retail companies. It is
                                processed by a system of 21 bulk mail centers and other
                                facilities nationwide. The Postal Service spends more than
                                $500 million annually on contracts to transport bulk mail
                                over highway networks. Contracted routes are controlled by
                                individual Postal Service areas.




   Highway Contract Route
  87011 being loaded at the
  dock of the Albuquerque
 Processing and Distribution
  Center for transport to the
    Albuquerque Auxiliary
      Service Facility on
      December 1, 2004.




                                This report focuses on the routes controlled by the
                                Southwest Area and responds to a request from the vice
                                president, Network Operations Management.

 Objectives, Scope,             The objectives of our audit were to evaluate the
 and Methodology                effectiveness of scheduled bulk mail center highway
                                transportation routes and to identify opportunities for cost
                                savings.

                                Using Postal Service computer-generated data, we
                                identified 1,050 trips operated under 86 Southwest Area
                                contracts that had at least one bulk mail center service
                                point. In preparation for our work, we provided area officials
                                and Postal Service managers with the list of Southwest
                                Area contracts we intended to audit. During our work, we
                                interviewed officials at headquarters and in the Southwest
                                Area; reviewed relevant Postal Service policies and



                                                    1
Surface Transportation – Bulk Mail Center Highway                        NL-AR-05-008
 Transportation Routes – Southwest Area


                               procedures; visited the area’s bulk mail center and
                               two auxiliary service facilities; interviewed managers and
                               employees; and observed and photographed operations.
                               We consulted with financial analysts, computer analysts,
                               and other subject matter experts; evaluated mail volume
                               and the type of mail carried; considered service standards;
                               and analyzed all 1,050 trips.

                               We conducted work associated with this report from
                               November 2004 through July 2005, in accordance with
                               generally accepted government auditing standards and
                               included such tests of internal controls that we considered
                               necessary under the circumstances. We discussed our
                               observations and conclusions with appropriate management
                               officials and included their comments where appropriate.

 Data Limitations              During our audit, we examined computer data in
                               management’s Transportation Contract Support System and
                               Transportation Information Management Evaluation System.
                               We did not audit or comprehensively validate the data;
                               however, we noted several control weaknesses that
                               constrained our work. For example, the Transportation
                               Information Management Evaluation System had missing
                               records and inaccurate trailer load volumes. Even though
                               data limitations constrained our work, we were able to
                               partially compensate by applying alternate audit procedures,
                               including source document examination, observation,
                               physical inspection, and discussion with responsible
                               officials. We also applied conservative principles to our
                               monetary impact estimates and, accordingly, always
                               selected the most restrained assessment.

 Prior Audit Coverage          Since September 2002, the Office of Inspector General has
                               worked with the Postal Service to reduce surface
                               transportation. As a result, we have issued 14 audit reports
                               that identified potential savings exceeding $64.4 million over
                               the life of eliminated or reduced transportation contracts.
                               For more detailed information about these audits, see
                               Appendix A.




                                                    2
Surface Transportation – Bulk Mail Center Highway                                 NL-AR-05-008
 Transportation Routes – Southwest Area




                                       AUDIT RESULTS

 Contracted Bulk Mail          The Postal Service could save about $7.2 million over the
 Center Highway Trips          term of existing Southwest Area bulk mail highway contracts
                               by canceling, not renewing, or modifying 79 trips. The
                               Postal Service could eliminate or modify the trips without
                               negatively affecting service because trip mail volume was
                               low and mail could be consolidated on other trips. As
                               indicated below, 33 percent of affected trips will expire
                               within one year. The other 67 percent have one to
                               three years remaining.
                                        PROPOSED NONRENEWALS AND CANCELLATIONS

                                          TRIP               AFFECTED       NUMBER         ESTIMATED
                                        CATEGORY               TRIPS        OF TRIPS        SAVINGS

                                  Contracts expiring
                                  within one year*           33 percent          26        $5,508,161

                                  Contracts expiring in
                                  one to three years         67 percent          53        $1,667,751

                                  All terminated trips       100 percent        79         $7,175,912

                                * Contracts in this trip category expired June 30, 2005.

                               Postal Service policy requires transportation managers to
                               balance service and cost. Although managers continually
                               strive to optimize transportation through aggressive
                               cost-cutting efforts—such as their breakthrough productivity
                               initiative—transportation requirements are dynamic and
                               constantly change. Consequently, the Postal Service could
                               attain additional savings through further service reductions
                               by not renewing unnecessary trips that are scheduled
                               to expire within one year or by canceling unnecessary
                               trips that are currently contracted to continue for one to
                               three years. The savings we identified included savings
                               from nonrenewable trips, plus savings from trip
                               cancellations net of cancellation fees totaling approximately
                               $222,262.

 Cooperative Effort            As a result of our continuing efforts to partner with and bring
                               value to the Postal Service, we had ongoing communication
                               with Southwest Area officials throughout our audit. We
                               provided the Southwest Area officials with a list of our
                               specific trip proposals and the officials reviewed each
                               proposal in conjunction with their own assessment of


                                                    3
Surface Transportation – Bulk Mail Center Highway                              NL-AR-05-008
 Transportation Routes – Southwest Area


                               area-wide network requirements. After the area’s review,
                               we held discussions with area officials and discussed our
                               proposals and area operational needs and made
                               appropriate adjustments.

                               As a result of our cooperative effort, the area agreed with
                               the 79 proposals outlined in Appendices B and C.
                                            PROPOSED TRIP CANCELLATIONS AND MODIFICATIONS

                                         CANCELLATION             NUMBER                 ESTIMATED
                                           CATEGORY               OF TRIPS   APPENDIX     SAVINGS

                                 Postal Service identified trip
                                 cancellations or
                                 modifications during the
                                 audit                                3         B         $27,531

                                 Proposals with which area
                                 officials agreed                    76         C       $7,148,381

                                 Total                               79                 $7,175,912


 Recommendations               We recommend the vice president, Southwest Area
                               Operations:

                               1. Verify the actual cancellation, modification, or
                                  substitution of the three trips identified during our audit
                                  by management.

                               2. Verify the actual cancellation, modification, or
                                  substitution of the 76 trips with which Postal Service
                                  managers agreed and provide the date action was
                                  taken.

 Management’s                  Management agreed with our findings and
 Comments                      recommendations. They stated they would finalize contract
                               negotiations to implement trip reduction recommendations
                               not later that August 30, 2005. Management agreed with
                               our savings estimates, but noted that actual savings might
                               differ slightly once contract negotiations were complete and
                               stated that they would provide a final accounting of savings
                               at that time.

                               Management stated that they supported our reviews and
                               other breakthrough productivity initiatives; and that they
                               appreciated our cooperation, insight, and recommendations.
                               Management also stated that our recommendations



                                                     4
Surface Transportation – Bulk Mail Center Highway                        NL-AR-05-008
 Transportation Routes – Southwest Area


                               precipitated overall trip reduction and savings opportunities
                               for the Southwest Area. Management’s comments, in their
                               entirety, are included in Appendix D of this report.

 Evaluation of                 Management’s comments are responsive to our
 Management’s                  recommendations. We applaud the Southwest Area’s
 Comments                      cooperative effort and timely action and we consider the
                               actions management has taken or planned sufficient to
                               address the issues we identified.




                                                    5
      Surface Transportation – Bulk Mail Center Highway                                                                           NL-AR-05-008
       Transportation Routes – Southwest Area


                                               APPENDIX A. PRIOR AUDIT COVERAGE

                                                                                      Number of                      Number of  Number of
                                                                                         Trips                       Trips With Trips With Number of
                                                                            Report   Identified for   Potential        Which      Which      Trips
                                                                             Final  Elimination or     Savings      Management Management Identified by
                       Report Name                          Report Number Issue Date Modification     Identified      Agreed    Disagreed Management

Highway Network Scheduling – Pacific Area                   TD-AR-02-003 9/24/2002         158         $4,500,417        76           34          48
Highway Network Scheduling – Northeast Area                 TD-AR-03-002 11/25/2002         18            776,992        10            8           0
Highway Network Scheduling – Capital Metro Area             TD-AR-03-007 3/28/2003          34          1,144,218        20           14           0
Highway Network Scheduling – New York Metro Area            TD-AR-03-008 3/31/2003          32            470,123        12           20           0
Highway Network Scheduling – Southwest Area                 TD-AR-03-010 7/11/2003         249          5,989,082       148          101           0
Highway Network Scheduling – Western Area                   TD-AR-03-013 9/23/2003          70          2,721,530        30           40           0
Highway Network Scheduling – Southeast Area                 TD-AR-03-014 9/26/2003         101         11,352,881        23           24          54
Highway Network Scheduling – Eastern Area                   TD-AR-03-015 9/30/2003         181         10,577,367       128           53           0
Highway Network Scheduling – Great Lakes Area               NL-AR-04-003 3/29/2004          72          5,352,877        48           22           2
Bulk Mail Center Transportation Routes – Great Lakes Area   NL-AR-04-004 9/29/2004          96          7,660,533        49            7          40
Bulk Mail Center Transportation Routes – Eastern Area       NL-AR-05-003 3/17/2005          35          4,791,570        29            6           0
Intermodal Rail and Highway Transportation – Pacific Area   NL-AR-05-004 3/18/2005           0          1,046,240         0            0           0
Bulk Mail Center Transportation Routes – Southeast Area     NL-AR-05-005 3/18/2005          52          6,563,582        52            0           0
Bulk Mail Center Transportation Routes – New York Metro     NL-AR-05-007 6/9/2005           16          1,499,371        16            0           0


                           Totals                                                        1,114        $64,446,783       641          329         144




                                                                          6
Surface Transportation – Bulk Mail Center Highway                                                                               NL-AR-05-008
 Transportation Routes – Southwest Area



                                                                     APPENDIX B

                                   TRIPS IDENTIFIED BY POSTAL SERVICE MANAGERS
                                                 DURING AUDIT WORK
 Effective
  Date of    End Date     Highway
   Last         of        Contract     Trip               Specific             Origin to       Annual       Estimated      Indemnity    Estimated
 Change      Contract     Number      Number        Recommendation           Destination     Budget Cost   Contract Cost      Fees     Cost Savings
 7/1/2003    6/20/2005     73740          1         Eliminate AMC stop   Enid, Oklahoma to   $      971    $      3,884    $       –   $       3,884
                                                      on Sundays and     Oklahoma City
                                                          Holidays       P&DC, Oklahoma
 9/4/2004    6/30/2007     730AA      347 and           Whole Trip       Oklahoma City       $    13,512   $     28,151    $   4,504   $    23,647
                                        348                              P&DC to Shartel
                                                                         Station, Oklahoma
             TOTALS                       3                                                  $   14,483    $     32,035    $   4,504   $    27,531

P&DC – Processing and Distribution Center
AMC – Air Mail Center




                                                                           7
Surface Transportation – Bulk Mail Center Highway                                                                              NL-AR-05-008
 Transportation Routes – Southwest Area



                                                                 APPENDIX C

                               TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                      POSTAL SERVICE MANAGERS AGREED
Effective                 Highway
 Date of     End Date     Contract                   Specific                          Annual
  Last           of        Route       Trip         Recommen-       Origin to          Budget      Estimated      Indemnity         Estimated
Change       Contract     Number      Number          dation       Destination          Cost      Contract Cost      Fees          Cost Savings
8/7/2004     6/30/2005     73042        9           Whole Trip    Oklahoma City      $    4,245     $    16,980     $     –         $    16,980
                                                                  MPA, Oklahoma
                                                                  to Sooner
                                                                  Station,
                                                                  Oklahoma
 8/7/2004    6/30/2005     73042         10         Whole Trip    Sooner Station,    $    4,245     $    16,980       $       –     $    16,980
                                                                  Oklahoma, to
                                                                  Oklahoma City
                                                                  MPA, Oklahoma
10/2/2004    6/30/2008     75090        801         Whole Trip    Dallas BMC to      $   22,432     $    69,166   $        7,477    $    61,689
                                                                  Denton
10/2/2004    6/30/2008     75090        802         Whole Trip    Denton to Dallas   $   22,432     $    69,166   $        7,477    $    61,689
                                                                  BMC
 9/4/2004    6/30/2006     75091        803         Holidays      Dallas BMC to      $    2,981     $     3,229   $         497     $     2,732
                                                                  Lake Charles
 9/4/2004    6/30/2006     75091        804         Holidays      Lake Charles to    $    2,938     $     3,183   $         490     $     2,693
                                                                  Dallas BMC
1/22/2005    6/30/2007     75092        805         Holidays      Dallas BMC to      $    2,714     $     5,655   $         905     $     4,750
                                                                  McAllen P&DF
1/22/2005    6/30/2007     75092        806         Holidays      McAllen P&DF to    $    2,714     $     5,655   $         905     $     4,750
                                                                  Dallas BMC
 1/2/2005    6/30/2008     75110        801         Eliminate     Dallas BMC to      $   57,888     $   178,488   $       19,296    $   159,192
                                                    Saturdays     Denver BMC
 1/2/2005    6/30/2008     75110        802         Eliminate     Denver BMC to      $   57,888     $   178,488   $       19,296    $   159,192
                                                    Saturdays     Dallas BMC
 1/2/2005    6/30/2008     75110        803         Holidays      Dallas BMC to      $   11,107     $    34,248   $        3,702    $    30,546
                                                                  Denver BMC



                                                                       8
Surface Transportation – Bulk Mail Center Highway                                                                                  NL-AR-05-008
 Transportation Routes – Southwest Area


Effective                 Highway
 Date of     End Date     Contract                   Specific                             Annual
  Last           of        Route       Trip         Recommen-          Origin to          Budget       Estimated      Indemnity         Estimated
Change       Contract     Number      Number          dation          Destination          Cost       Contract Cost      Fees          Cost Savings
1/2/2005     6/30/2008     75110        804         Holidays         Denver BMC to      $   11,094      $    34,206    $   3,698        $    30,508
                                                                     Dallas BMC
1/22/2005    6/30/2005     75112        803         Whole Trip       Dallas BMC to      $   171,758     $   687,032       $       –     $   687,032
                                                                     Des Moines BMC
1/22/2005    6/30/2005     75112        804         Whole Trip       Des Moines BMC     $   171,758     $   687,032       $       –     $   687,032
                                                                     to Dallas BMC
 9/4/2004    6/30/2008     75117        804         Eliminate        St. Louis BMC to   $    81,983     $   252,781   $       27,328    $   225,453
                                                    Fridays and      Dallas BMC
                                                    Saturdays
 9/4/2004    6/30/2008     75117        805         Eliminate        Dallas BMC to      $    81,426     $   251,063   $       27,142    $   223,921
                                                    Fridays and      St. Louis BMC
                                                    Saturdays
 9/4/2004    6/30/2005     75119        803         Eliminate        Dallas BMC to      $    83,854     $   335,415       $       –     $   335,415
                                                    Sundays and      Detroit BMC
                                                    two Holidays
 9/4/2004    6/30/2005     75119        804         Eliminate        Detroit BMC to     $    83,854     $   335,415       $       –     $   335,415
                                                    Sundays and      Dallas BMC
                                                    two Holidays
12/4/2004    6/30/2008     75190        801         Eliminate        Dallas BMC to      $    12,110     $    37,339   $        4,037   $    33,303*
                                                    North Texas      Lubbock P&DF
                                                    and Fort Worth
                                                    stops
12/6/2004    6/30/2008     75191        803         Whole Trip       Dallas BMC to      $    28,695     $    88,475   $        9,565    $    78,910
                                                                     East Texas
                                                                     P&DC
12/6/2004    6/30/2008     75191        804         Whole Trip       East Texas         $    28,979     $    89,353   $        9,660    $    79,693
                                                                     P&DC to Dallas
                                                                     BMC
12/25/2004   6/30/2005     75194        807         Whole Trip       North Texas        $   177,952     $   711,809       $       –     $   711,809
                                                                     P&DC to
                                                                     Beaumont P&DF




                                                                          9
Surface Transportation – Bulk Mail Center Highway                                                                                      NL-AR-05-008
 Transportation Routes – Southwest Area


 Effective                    Highway
  Date of       End Date      Contract                 Specific                             Annual
   Last             of         Route       Trip       Recommen-           Origin to         Budget          Estimated      Indemnity        Estimated
 Change         Contract      Number      Number        dation           Destination         Cost          Contract Cost      Fees         Cost Savings
12/25/2004      6/30/2005      75194        810      Whole Trip        Beaumont P&DF       $ 176,642         $ 706,568       $     –        $ 706,568
                                                                       to North Texas
                                                                       P&DC
    9/4/2004    6/30/2008      75197        8031     Eliminate         Dallas BMC to       $   18,091        $    55,779   $       6,030    $    49,749
                                                     Saturdays         San Angelo
    9/4/2004    6/30/2008      75197        803      Eliminate Ft.     Dallas BMC to       $   10,468        $    32,276   $       3,489    $    28,787
                                                     Worth Stop,       San Angelo
                                                     Dallas P&DC
                                                     and North
                                                     Texas Stops
    9/4/2004    6/30/2008      75197        804      Eliminate         San Angelo to       $   15,664        $    48,298   $       5,221   $    43,076*
                                                     Saturdays         Dallas BMC
1/15/2005       4/30/2005      75238          5      Whole Trip        North Texas         $   18,320        $    73,278       $      –     $    73,278
                                                                       P&DC to Garland
                                                                       Kingsley
1/15/2005       4/30/2005      75238          6      Whole Trip        Garland Kingsley    $   18,320        $    73,278       $      –     $    73,278
                                                                       to North Texas
                                                                       P&DC
1/15/2005       4/30/2005      75238        105      Whole Trip        North Texas         $       9,753     $    39,014       $      –     $    39,014
                                                                       P&DC to
                                                                       Carrollton
1/15/2005       4/30/2005      75238        106      Whole Trip        Carrollton to       $       9,753     $    39,014       $      –     $    39,014
                                                                       North Texas
                                                                       P&DC
1/15/2005       4/30/2005      75238        155      Whole Trip        North Texas         $       6,989     $    27,958       $      –     $    27,958
                                                                       P&DC to Irving
                                                                       Carl Range
1/15/2005       4/30/2005      75238        156      Whole Trip        Irving Carl Range   $       6,989     $    27,958       $      –     $    27,958
                                                                       to North Texas
                                                                       P&DC
1/15/2005       4/30/2005      75238        165      Whole Trip        North Texas         $       5,799     $    23,197       $      –     $    23,197
                                                                       P&DC to Irving
                                                                       Carl Range
1/15/2005       4/30/2005      75238        166      Whole Trip        Irving Carl Range   $       5,799     $    23,197       $      –     $    23,197
                                                                       to North Texas
                                                                       P&DC

1
    Trip 803 for contract 75197 appears twice due to two distinct recommendations for this trip.

                                                                            10
Surface Transportation – Bulk Mail Center Highway                                                                              NL-AR-05-008
 Transportation Routes – Southwest Area


 Effective                Highway
  Date of    End Date     Contract                    Specific                         Annual
   Last          of        Route       Trip          Recommen-     Origin to           Budget      Estimated       Indemnity        Estimated
 Change      Contract     Number      Number           dation     Destination           Cost      Contract Cost       Fees         Cost Savings
11/27/2004   6/30/2006     76090        835         Whole Trip   Dallas BMC to       $    7,333     $      7,944    $   1,222       $     6,722
                                                                 Arlington Main
11/27/2004   6/30/2006     76090        836         Whole Trip   Arlington Main to   $    7,333      $    7,944    $       1,222    $     6,722
                                                                 Dallas BMC
 9/4/2004    6/30/2005     87010          3         Eliminate    Albuquerque         $   19,115      $   76,459        $      –     $    76,459
                                                    Saturdays    P&DC to Clovis
                                                                 Northwest
                                                                 Station
 9/4/2004    6/30/2005     87010          4         Eliminate    Clovis Northwest    $   19,115      $   76,459        $      –     $    76,459
                                                    Saturdays    Station, New
                                                                 Mexico, to
                                                                 Albuquerque
                                                                 P&DC
 9/4/2004    6/30/2005     87010          6         Eliminate    Clovis Northwest    $   19,115      $   76,459        $      –     $    76,459
                                                    Saturdays    Station, New
                                                                 Mexico, to
                                                                 Albuquerque
                                                                 P&DC
4/17/2004    6/30/2005     87013          1         Eliminate    Albuquerque         $   15,400      $   61,602        $      –     $    61,602
                                                    Saturdays    ASF to
                                                                 Alamogordo,
                                                                 New Mexico
4/17/2004    6/30/2005     87013          2         Eliminate    Alamogordo,         $   15,400      $   61,602        $      –     $    61,602
                                                    Sundays      New Mexico, to
                                                                 Albuquerque
                                                                 ASF
4/17/2004    6/30/2005     87014          1         Eliminate    Albuquerque         $   14,030      $   56,122        $      –     $    56,122
                                                    Saturdays    P&DC to
                                                                 Farmington, New
                                                                 Mexico
4/17/2004    6/30/2005     87014          2         Eliminate    Farmington to       $   12,879      $   51,515        $      –     $    51,515
                                                    Sundays      Albuquerque
                                                                 P&DC
 9/4/2004    6/30/2007     730AA      325 and       Whole Trip   Oklahoma City       $    2,562      $    5,337    $        854     $     4,483
                                        326                      P&DC to
                                                                 Stockyards
                                                                 Station,
                                                                 Oklahoma, and
                                                                 Return


                                                                      11
Surface Transportation – Bulk Mail Center Highway                                                                          NL-AR-05-008
 Transportation Routes – Southwest Area



Effective                 Highway
 Date of     End Date     Contract                   Specific                          Annual
  Last           of        Route        Trip        Recommen-      Origin to           Budget      Estimated      Indemnity      Estimated
Change       Contract     Number      Number          dation      Destination           Cost      Contract Cost      Fees      Cost Savings
9/4/2004     6/30/2007     730AA      337 and       Whole Trip   Oklahoma City       $    8,413     $    17,528    $   2,804    $    14,723*
                                        338                      P&DC to
                                                                 Northwest
                                                                 Station,
                                                                 Oklahoma, and
                                                                 Return
 9/4/2004    6/30/2007     730AA      367 and       Whole Trip   Oklahoma City       $   14,532     $    30,275   $   4,844     $    25,431
                                        368                      P&DC to
                                                                 Southwest
                                                                 Station,
                                                                 Oklahoma, and
                                                                 Return
 9/4/2004    6/30/2007     730AA      369 and       Whole Trip   Oklahoma City       $   14,532     $    30,275   $   4,844     $    25,431
                                        370                      P&DC to
                                                                 Southwest
                                                                 Station,
                                                                 Oklahoma, and
                                                                 Return
 9/4/2004    6/30/2007     730AA      377 and       Whole Trip   Oklahoma City       $   14,173     $    29,527   $   4,724     $    24,803
                                        378                      P&DC to
                                                                 Westside Station,
                                                                 Oklahoma, and
                                                                 Return
 9/4/2004    6/30/2007     730AA      381 and       Whole Trip   Oklahoma City       $    2,822     $     5,879   $     941    $      4,939*
                                        382                      P&DC to
                                                                 Westside Station,
                                                                 Oklahoma, and
                                                                 Return
 9/4/2004    6/30/2007     730AA      455 and       Whole Trip   Oklahoma City       $   27,039     $    56,331   $   9,013     $    47,318
                                        456                      P&DC to
                                                                 Oklahoma City
                                                                 AMF, Oklahoma,
                                                                 and Return
 9/4/2004    6/30/2007     730AA      459 and       Whole Trip   Oklahoma City       $   27,039     $    56,331   $   9,013     $    47,318
                                        460                      P&DC to
                                                                 Oklahoma City
                                                                 AMF, Oklahoma,
                                                                 and Return



                                                                      12
Surface Transportation – Bulk Mail Center Highway                                                                          NL-AR-05-008
 Transportation Routes – Southwest Area



Effective                 Highway
 Date of     End Date     Contract                    Specific                     Annual
  Last           of        Route        Trip         Recommen-     Origin to       Budget       Estimated      Indemnity        Estimated
Change       Contract     Number      Number           dation     Destination       Cost       Contract Cost      Fees         Cost Savings
9/4/2004     6/30/2007     730AA      555 and       Whole Trip   Oklahoma City   $   13,212      $    27,525    $   4,404       $    23,121
                                        556                      P&DC to
                                                                 Oklahoma City
                                                                 Standard B
                                                                 Annex,
                                                                 Oklahoma, and
                                                                 Return
 9/4/2004    6/30/2007     730AA      557 and       Whole Trip   Oklahoma City   $    13,212     $    27,525   $       4,404    $    23,121
                                        558                      P&DC to
                                                                 Oklahoma City
                                                                 Standard B
                                                                 Annex,
                                                                 Oklahoma, and
                                                                 Return
 3/9/2005     3/9/2005     770XU          1         Whole Trip   Houston P&DC    $   155,231     $   620,925       $      –     $   620,925
                                                                 to Dallas BMC
 3/9/2005     3/9/2005     770XV          1         Whole Trip   Houston P&DC    $   149,753     $   599,010       $      –     $   599,010
                                                                 to Dallas BMC
10/23/2004   6/30/2008     870DD          1         Eliminate    THS, New        $     2,436     $     7,510   $        812     $     6,698
                                                    Sundays      Mexico to
                                                                 Albuquerque
                                                                 P&DC
10/23/2004   6/30/2008     870DD          2         Eliminate    Albuquerque     $     2,436     $     7,510   $        812     $     6,698
                                                    Sundays      P&DC to THS,
                                                                 New Mexico
10/23/2004   6/30/2008     870DD          3         Eliminate    THS, New        $     2,436     $     7,510   $        812     $     6,698
                                                    Sundays      Mexico to
                                                                 Albuquerque
                                                                 P&DC
10/23/2004   6/30/2008     870DD          4         Eliminate    Albuquerque     $     2,436     $     7,510   $        812     $     6,698
                                                    Sundays      P&DC to THS,
                                                                 New Mexico
10/31/2004   6/30/2008     870FA          7         Whole Trip   Albuquerque     $     9,106     $    28,077   $       3,035    $    25,042
                                                                 P&DC to
                                                                 Albuquerque
                                                                 ASF




                                                                     13
Surface Transportation – Bulk Mail Center Highway                                                                                             NL-AR-05-008
 Transportation Routes – Southwest Area


 Effective                    Highway
  Date of      End Date       Contract                  Specific                                Annual
   Last            of          Route       Trip        Recommen-            Origin to           Budget         Estimated          Indemnity       Estimated
 Change        Contract       Number      Number         dation            Destination           Cost         Contract Cost          Fees        Cost Savings
10/31/2004     6/30/2008       870FA        8         Whole Trip         Albuquerque          $    9,106        $    28,077        $   3,035      $    25,042
                                                                         ASF to
                                                                         Albuquerque
                                                                         P&DC
10/31/2004     6/30/2008       870FA         27       Eliminate          Albuquerque          $      1,550        $      4,780     $      517       $      4,263
                                                      Sundays and        P&DC to
                                                      Holidays           Albuquerque
                                                                         ASF
10/31/2004     6/30/2008       870FA         28       Eliminate          Albuquerque          $      1,550        $      4,780     $      517       $      4,263
                                                      Sundays and        ASF to
                                                      Holidays           Albuquerque
                                                                         P&DC
10/31/2004     6/30/2008       870FA         67       Eliminate          Albuquerque          $      1,550        $      4,780     $      517       $      4,263
                                                      Sundays and        P&DC to
                                                      Holidays           Albuquerque
                                                                         ASF
10/31/2004     6/30/2008       870FA         68       Eliminate          Albuquerque          $      1,550        $      4,780     $      517       $      4,263
                                                      Sundays and        ASF to
                                                      Holidays           Albuquerque
                                                                         P&DC
10/31/2004     6/30/2008       870FA         69       Eliminate          Albuquerque          $      2,801        $      8,637     $      934      $      7,704*
                                                      Saturdays,         P&DC to
                                                      Sundays, and       Albuquerque
                                                      Holidays           ASF
10/31/2004     6/30/2008       870FA         70       Eliminate          Albuquerque          $      2,801        $      8,637     $      934      $      7,704*
                                                      Saturdays,         ASF to
                                                      Sundays, and       Albuquerque
                                                      Holidays           P&DC

TOTALS                                       76                                               $2,039,636*       $ 7,366,139*       $ 217,758*     $ 7,148,381*

Recommendations cover 76 trips as reflected in the report. Appendix C reflects 77 line items because HCR 75197 trip 803, has two different modifications. As
such, to ensure clear understanding of the specific trip proposals, we separated the distinct actions.

*Minor Rounding Differences

AMF – Air Mail Facility                     MPA – Mail Processing Annex                                   THS – Terminal Handling Service
ASF – Auxiliary Service Facility            P&DC – Processing and Distribution Center
BMC – Bulk Mail Center                      P&DF – Processing and Distribution Facility


                                                                              14
Surface Transportation – Bulk Mail Center Highway        NL-AR-05-008
 Transportation Routes – Southwest Area


                   APPENDIX D. MANAGEMENT’S COMMENTS




                                                    15
